    June 25, 2003




Testimony

                     Statement
                          of
                 Paul J. Granetto
                      Director
         Defense Financial Auditing Service
          Office of the Inspector General
              Department of Defense
                       to the
      Subcommittee on Government Efficiency
            and Financial Management
       House Government Reform Committee
                         on
          Defense Financial Management



                    D-2003-111-T



               Department of Defense
           Office of the Inspector General
 Quality               Integrity       Accountability
Mr. Chairman and Members of the Committee:

       Thank you for the opportunity to provide the views of the Office of the Inspector

General of the Department of Defense on financial management, which continues to rank

as one of the Department’s most difficult management improvement challenges. I would

like to begin by noting the fundamental fiduciary responsibility of the Department of

Defense, which is to manage assets purchased with taxpayer dollars effectively and

efficiently. The American taxpayer should expect no less than that: Article I, Section 9

of the Constitution stipulates that: “a regular Statement and Account of the Receipts and

Expenditures of all public Money shall be published from time to time.” Accordingly,

the Chief Financial Officers Act, as amended, describes the Inspector General’s

responsibility for auditing the financial statements of the Department of Defense.

       The importance of reliable financial information is reiterated by recent military

actions in Afghanistan and Iraq. Decision-makers responsible for planning military

actions need reliable financial information so that they can prudently manage available

resources and allocate dollars to those processes that yield maximum support for the war

fighters. I am pleased to report to you today that the Department of Defense has

undertaken an ambitious task to overhaul its financial management systems and business

processes. However, current financial statements remain generally unreliable.

Opinions on Financial Statements for FY 2002

         In terms of audit opinions, I wish we could report more significant progress in

achieving a favorable audit opinion for the Department. For FY 2002, we again issued a

disclaimer of opinion for the Department of Defense Agency-Wide Financial Statements

because serious deficiencies continue to exist related to the quality of data, adequacy of




                                             1
reporting systems, and reliability of internal controls. We also issued a disclaimer of

opinion on all but one of the major reporting entities. As in past years, we issued an

unqualified (clean) opinion for the Military Retirement Fund’s financial statements. We

continue to support the Senate Select Committee on Intelligence’s objective to improve

financial reporting within the intelligence community. Unfortunately, we found that the

National Security Agency, Defense Intelligence Agency, and the National Imagery and

Mapping Agency continued to produce unreliable financial statements because they lack

compliant accounting systems, did not devote adequate resources to financial operations,

and had not implemented prior audit recommendations. (Attachment 1 shows the

reporting entities for 2002 and the number of financial statements required for each

reporting entity.) Four other Department of Defense agencies1 whose funds are not large

enough to require separate reporting to the Office of Management and Budget have

received unqualified opinions from independent public accounting firms. That is a

positive sign, but the impact of these statements is minimal on the Department of Defense

Agency-Wide Financial Statements because the balances are not significant.

Internal Control Deficiencies

        Data reliability, integrity, timeliness and auditability continue to impede our

ability to render an opinion on the financial statements. The Department has readily

acknowledged that many of its financial management and feeder systems do not produce

adequate data to support various material amounts on the financial statements. We

reported the following material control deficiencies in our audit report for the FY 2002

Department of Defense Agency-Wide Financial Statements:


1
 Defense Contract Audit Agency, Defense Commissary Agency, Defense Finance and Accounting Service,
and the Defense Threat Reduction Agency


                                                2
•   Financial Management Systems. As a result of the Department-wide deficiencies
    in financial systems and business practices, the Department is unable to collect
    and report financial performance information that is timely, accurate, and reliable.


•   Intragovernmental Eliminations and Other Accounting Entries. Most
    intragovernmental transactions cannot be reconciled. Therefore, related
    adjustments cannot be verified. Also, the Department continues to record
    material amounts of unsupported accounting entries as they prepare their financial
    statements for audit.

•   Fund Balance with Treasury and Problem Disbursements. A significant dollar
    value of disbursements is not accurately reported. Uncleared differences exist
    between cash transactions reported by the Department and the Treasury
    Department’s records. Also, disbursements are not properly matched to specific
    obligations in accounting systems.

•   Military Retirement Health Care Liabilities. The quality of direct care data in the
    military health care system affected the accuracy of the unfunded liability.

•   Environmental Liabilities. The Department has difficulty estimating the
    environmental liabilities because of problems with guidance, audit trails,
    estimating models, and site inventories.

•   General Property, Plant and Equipment. The value of General Property, Plant,
    and Equipment is not reliably reported due to lack of supporting documentation.

•   Government-Furnished Material and Contractor Acquired Material. The value of
    Defense property and material in the possession of contractors is not reliably
    reported.

•   Inventory. The existing inventory valuation method does not produce an
    auditable approximation of historical cost because the associated gains and losses
    cannot be accurately tracked to specific items or purchases.


                                         3
   •   Operating Material and Supplies. The Department’s systems were designed to
       expense materials when purchased rather than when consumed, which causes the
       true value of this inventory account to be unknown.

   •   Statement of Net Cost. The Statement of Net Cost is presented by appropriation
       categories that cannot be aligned with the major goals and outputs described in
       the Department’s strategic plan and performance measures.

   •   Statement of Financing. The Department cannot reconcile budgetary obligations
       to net cost without making adjustments.



Other Recent Audit Results

       Although the annual audit opinions may continue to attract more attention than

other individual audit reports, the Department’s progress in addressing the specific

findings and recommendations of individual reports will be a critical factor in

determining how much financial management improvement actually occurs. The

following examples show the variety of financial management challenges that the

Department faces.

               --When the Defense Finance and Accounting Service began taking steps to

close down their old contract disbursing system (MOCAS), nearly 4,000 old contracts

with unpaid invoices surfaced. The unpaid invoices totaled approximately $97 million.

Some contracts were improperly funded from cancelled appropriations. Various Defense

entities had not identified funding to make payments, and prompt payment penalties were

accruing. The Department needed to find current funding to pay the invoices so that the

contracts could be closed. (Report D-2002-076)




                                             4
               --Since July 2002, the Inspector General issued 13 reports in support of

the Federal Information Security Management Act, which requires Government-wide,

cost-effective policies for security of Federal information systems. Eight of the reports

discussed financial systems. We found a variety of security-related problems in these

audits. For example, In December 2002, we reported that the Defense Finance and

Accounting Service had not fully implemented information security controls for a system

used by the Military Departments. The numerous material weaknesses indicated that

controls were not in place to detect or prevent unrestricted access or fraudulent payments.

The weak controls led to at least $500 thousand of fraudulent payments in the past

6 years. Management was awaiting implementation of a new system to correct control

weaknesses; however, implementation had been delayed. Management agreed to correct

the weaknesses when we brought the problems to their attention. (Report D-2003-035)

               --A series of three OIG audits identified hundreds of millions of dollars of

deferred maintenance not identified and reported on the financial statements. The

Military Departments were not consistently and accurately compiling deferred

maintenance information on weapons systems. Also, the Military Departments did not

collect information on all maintenance actions funded by the Operation and Maintenance

appropriation, did not perform a required reconciliation between deferred maintenance

information and budget documentation, and did not collect information on deferred

maintenance incurred on support ships. (Reports D-2003-030, D-2003-054, D-2003-058)

               --In two audits discussing Navy assets, we reported significant

misstatements: The Navy materially misstated inventory by about $500 million because

its revaluation methodology was incorrect. (Report D-2003-039) The Navy also




                                             5
incorrectly classified $6.9 billion in principal end items as operating materials and

supplies that would be used in normal operations. (Report D-2003-020)

Congressional Guidance

       Section 1008 of the National Defense Authorization Act for FY 2002 directed the

Office of the Inspector General of the Department of Defense, when auditing the year-

end financial statements, to perform only the minimum audit procedures required by

auditing standards when management acknowledges the financial statements are

unreliable. We have long advocated that resources should not be expended to conduct

costly audits to produce a disclaimer of opinion at year-end.

       We agree with the rationale behind Section 1008 and we have complied with

those requirements in performing our audits of the FY 2002 Department of Defense-Wide

Financial Statements and 6 of the other required reporting entities. We were able to

efficiently plan limited audit procedures commensurate with management representations

that we received from the Office of the Under Secretary of Defense (Comptroller) and

Military Departments. The Military Retirement Fund and U.S. Army Corps of Engineers,

Civil Works management represented their financial statements were fairly presented

and we initiated a full scope audit.

       Generally the financial management weaknesses acknowledged by management

were of such a magnitude that they enabled us to limit our audit work and issue

disclaimers. However, those known weaknesses may represent the tip of the iceberg.

We recognize, and have advised Department of Defense management, that additional

weaknesses may be identified in the future when we initiate detailed financial statement

audit work in response to management’s improved representations. To mitigate the risks




                                             6
of new weaknesses surfacing during the financial statement audits, we have encouraged

Department of Defense management to rigorously and thoroughly review the impact of

corrective actions.

U. S. Army Corps of Engineers

        On September 18, 2002, the U.S. Army Corps of Engineers, Civil Works

management represented that their FY 2002 financial statements would be fairly

presented in all material respects and in accordance with Generally Accepted Accounting

Principles. After initiating our audit effort, the Corps realized that audit-ready evidential

matter was not readily available for our review, and as a result we issued a disclaimer of

opinion in January 2003. We are continuing extensive financial audit work in the Army

Corps of Engineers, Civil Works, and we are finding additional problem areas. The

Army Corps of Engineers is taking aggressive actions to correct problems as they are

identified.

        The audit of the U.S. Army Corps of Engineers, Civil Works has demonstrated

the magnitude of the effort required to perform comprehensive audits on Department of

Defense entities. In supporting our disclaimer of opinion on the Balance Sheet,

120 auditors were involved in performing audit work. Additional auditors will be needed

to audit larger components. For example, the U.S. Army Corps of Engineers, Civil

Works reported $43 billion in assets and $12 billion in Budgetary Resources. However,

the Army General Fund reported more than $90 billion in assets and $112 billion in

Budgetary Resources. The Office of the Inspector General will require additional audit

resources as other Department of Defense components assert that previously reported




                                              7
problems have been corrected and data supporting the financial statements is auditable

and reliable.

Business Management Modernization Program

       The Department of Defense has numerous business systems performing a myriad

of tasks. These systems are often characterized by multiple systems performing the same

tasks, the same data stored in multiple systems, manual data entry and reentry into

multiple systems, and extensive data translations. These characteristics limit data

integrity and require extensive efforts by management to compile financial statements.

The current initiative by the Office of the Under Secretary of Defense (Comptroller) in

establishing the Department of Defense Business Management Modernization Program

Office supports the course mandated by Section 1008 to correct system weaknesses prior

to expending significant efforts to compile and audit the Department’s financial

statements. On April 30, 2003, the Business Management Modernization Program

delivered the initial Business Enterprise Architecture (Architecture), which is currently in

the implementation phase. The Architecture is essentially a blueprint describing the

Department’s future financial management systems and processes. The blueprint and its

associated transition plan will be the basis for financial reform in the Department. Full

implementation of the Architecture will allow the Department to comply with Federal

accounting and financial management reporting requirements, especially those mandated

by the Federal Financial Management Improvement Act of 1996. The Architecture also

provides an approach that leads to the integration of budget, accounting, and program

information and systems. We believe that the effort to establish a comprehensive business

systems architecture is a necessary and long overdue step. The General Accounting




                                             8
Office is evaluating the architecture as required by the FY 2003 National Defense

Authorization Act.

       In preparation for the Architecture, the Business Management Modernization

Program was required to compile a Department of Defense business systems inventory.

On May 9, 2003, the Business Management Modernization Program reported an

inventory of 2,274 business systems. However, this inventory still may not be complete

and the Under Secretary of Defense (Comptroller) will need to continue to work with the

Assistant Secretary of Defense for Networks Information Integration to develop a single

source for business systems information to enhance implementation of the Architecture.

       There are undeniable risks—implementation of the Architecture could take much

longer than anticipated, the cost to implement the architecture might be prohibitively

expensive, and the Department may lack the discipline to make system program

managers conform to the architecture over an extended period of time. The Department

has taken a major step forward by accepting the premise that the business management

improvement effort needs to be treated as a program, with all of the appropriate controls

required of a very large program. Those include a master plan, well-defined management

accountability, full visibility in the budget, regular performance reporting, and

comprehensive audit coverage. Until the Department installs its new financial

management architecture and integrated systems, it must rely on work-arounds and

manual compilations of financial data that are prone to errors. We believe that the

Department of Defense is making a good faith effort to create a strong management

structure for the systems improvement effort. We look forward to assisting the

Department in this endeavor.




                                             9
Additional Challenges

       In addition to the need for comprehensive financial systems to enable the

Department to achieve audit opinions on the financial statements, the Department faces

additional challenges related to accelerated reporting requirements, the new requirement

to include military equipment on the financial statements, and implementing numerous

open recommendations from prior audits.

       Like other Federal entities, the Department of Defense is faced with the challenge

of submitting the FY 2004 audited financial statements to the Office of Management and

Budget by November 15, 2004. The Department has voluntarily taken action to

accelerate the reporting schedule for FY 2003 and anticipates transmitting the FY 2003

audited financial statements to the Office of Management and Budget by December 19,

2003. Both the Department and the Inspector General have initiated joint planning tools

and communication channels to better synchronize our efforts toward producing and

auditing the financial statements. However, the impact of the accelerated reporting

deadline has vividly emphasized the already evident need for systems that can produce

reliable information on a real time basis.

       One new challenge specific to FY 2003 is the requirement to report Military

Equipment on the primary financial statements. In 1998, the Federal Accounting

Standards Advisory Board directed that all military equipment be removed from the

Department’s Balance Sheet. Under a new accounting standard issued by the Federal

Accounting Standards Advisory Board, the Department now must value and report

Military Equipment as property on the Balance Sheet. The Department of Defense has

struggled with developing policy and processes to track and value this equipment;




                                             10
however, Military Equipment represents a significant portion of assets on the Balance

Sheet. The Department currently estimates that more than $1.1 trillion (less depreciation)

will need to be added to the FY 2003 financial statements. Therefore, DoD will need to

emphasize, as a priority, the development and implementation of a robust framework for

tracking and valuing Military Equipment as it returns to the Department’s financial

statements.

       During the past 5 years, we have issued more than 115 financial audit reports with

almost 600 recommendations. About one-third of these recommendations are still open

while management completes corrective action. These recommendations have covered a

large number of problems relating to systems and process and control weaknesses within

the Defense Finance and Accounting Service, the Military Departments, and various

Defense agencies.

Strategy for Audited Financial Statements.

       The financial reporting process will be significantly impacted by accelerated

reporting requirements directed by the Office of Management and Budget, by the

Department’s energetic effort to overhaul its systems and business processes, and by the

significant efforts made by the Under Secretary of Defense (Comptroller) and his staff to

fully engage all parties including the Office of Management and Budget, the General

Accounting Office, and the Office of the Inspector General in full and open dialogue on

the Department’s problems in achieving a favorable audit opinion.

       This Winter, the Honorable David Walker, Comptroller General of the United

States; the Honorable Mark Everson, then Deputy Director for Management of the Office

of Management and Budget; the Honorable Dov Zakheim, Under Secretary of Defense




                                           11
(Comptroller); and the Honorable Joseph Schmitz, Inspector General of the Department

of Defense, all met to jointly agree on a strategy to accelerate the financial management

improvement efforts in the Department. This cooperative effort is unprecedented in the

history of the Department.

       I would like to mention that the Under Secretary of Defense (Comptroller), as the

Department’s Chief Financial Officer, and his staff have a refreshing and unique open

door policy to the Office of the Inspector General. The Office of the Inspector General,

along with the Under Secretary of Defense (Comptroller), realize that the lack of a

favorable opinion on the Department of Defense financial statements is a major

impediment to the U.S. Government receiving an unqualified opinion on its annual

financial statements. Without compromising our status as the independent auditor, the

Inspector General, at the request of the Under Secretary of Defense (Comptroller), is

actively participating in discussions with senior leadership within the Department and

within the Government on ways to help the Department achieve a favorable audit

opinion. Additionally, we now participate in joint quarterly reviews of the Department’s

financial statements with the Under Secretary of Defense (Comptroller) and senior

financial managers of the Military Departments to identify material issues that impact the

quality of the Department’s financial reporting process.

       The Inspector General has recently reorganized our financial auditing operations

in order to better facilitate the increased emphasis on financial auditing and achieving

favorable opinions on the various financial statements within the Department. The need

to increase the level of professionalism of the audit staff was recognized and steps were

initiated to encourage and fund the achievement of professional certifications and




                                            12
advanced degrees. In addition, we are able to rapidly change priorities and audit efforts

in order to respond to management assertions that financial data is ready for audit. For

example, last year the U.S. Army Corps of Engineers provided us with a management

representation that their Civil Works financial statements were reliable, fairly stated, and

ready for audit. In support of the request, we quickly responded to the challenge by

suspending numerous on-going projects and assigning 120 auditors (the majority of my

staff) to verify the validity of management’s representation.

       For budgetary purposes, we recently analyzed the size, scope, and potential costs

of comprehensive audits of Department of Defense financial statements when the

Department represents that the statements are reliable. We considered various mixes of

Government and public accounting resources. The Office of the Under Secretary of

Defense (Comptroller) is currently evaluating this information, and conclusions have not

been finalized.

       Concurrent with our development of a long-term audit strategy, in February 2003,

the Under Secretary of Defense (Comptroller) requested the Military Departments and

the Defense Logistics Agency to develop an estimate of resources required to correct

existing deficiencies in order to achieve a qualified audit opinion (rather than a disclaimer

opinion) of the FY 2004 financial statements. Prior to the request, only the Army had

prepared a long-term strategic plan to correct impediments to achieving a favorable

opinion. The Army refined its plan and the other components prepared plans showing

that, because of existing system deficiencies, large amounts of human and financial

capital would be needed to ensure accounting records would be in a condition for a

comprehensive audit of the FY 2004 financial statements. The plans generally conclude




                                             13
that it is neither cost-effective nor practical to invest the resources necessary to obtain a

favorable audit opinion by FY 2004. We are evaluating the results of these plans, and we

generally accept their conclusions that it may be impractical to expect a favorable audit

opinion on the FY 2004 financial statements of the major Department of Defense

components. However, these plans are beneficial because they identify problems that

need to be corrected, and will aid the Department in developing a methodical rationale

for investing resources to correct the identified problems. The Under Secretary of

Defense (Comptroller) and our office plan to develop a coordinated approach to

addressing the challenges that impede an audit of the Department’s financial statements.

       These studies by the Military Departments and our estimates of the resources

required for comprehensive audits of the financial statements for Department of Defense

components have highlighted the challenges that we all face, and have given a new sense

of urgency to solving long-standing financial accounting problems within the

Department. We believe that these plans will provide a critical road map towards

improvement and a means for measuring progress. However, regardless of the approach,

we will need additional audit resources as the Department begins to improve its systems

and processes and certifies that various financial statement line items and Components

are ready for comprehensive audits.




Conclusion

       As part of the effort to move forward and improve those systems and business

processes, the Department’s leadership has provided increased access and cooperation to




                                              14
the Office of the Inspector General during the financial statement preparation and audit

process. We especially want to thank the Under Secretary of Defense (Comptroller) and

his staff for their relentless pursuit of the strategies needed to expedite the correction of

long-standing problems preventing the Department from receiving a favorable audit

opinion. This strong leadership is the key element to successful financial management

reform. Our only concern is whether the Department’s commitment can be sustained

over the long road to successful completion of the numerous ongoing initiatives.

       We are now fully committed to meet the challenges ahead. The Department must

continue to improve its systems, processes, and internal controls necessary to ensure that

financial information is accurately recorded and reported.

       Thank you for considering the views of the Office of the Inspector General on

financial management within the Department of Defense. This concludes my testimony.




                                              15
ATTACHMENT 1

Required Financial Statement Audits. The Chief Financial Officers Act,
the Government Management Reform Act Public Law 103-356, and Office of
Management and Budget Bulletin 01-09, “Form and Content of Agency Financial
Statements,” require the Department of Defense and 23 other Federal agencies
to prepare agency-wide financial statements in accordance with Generally
Accepted Accounting Principles. The financial statements must cover all
accounts and associated activities of each agency. The Department of Defense
Agency-wide financial statements provide the financial status of the entire
Department. Within the Department, there are ten OMB required reporting
entities that, while included in the Department of Defense Agency-wide
statements, prepare separate stand-alone financial statements.

FY 2003 Reporting Requirements

              REPORTING ENTITIES                          NUMBER OF STATEMENTS
       Agency –Wide                                                  6
       Army General Fund                                             5
       Army Working Capital Fund                                     5
       Navy General Fund                                             5
       Navy Working Capital Fund                                     5
       Air Force General Fund                                        5
       Air Force Working Capital Fund                                5
       Military Retirement Fund                                      5
       U.S. Army Corps of Engineers,
         Civil Works                                                          5
       Medicare Eligible Retiree Health
         Care Fund*                                                           5
           TOTAL REQUIRED BY OMB                                             51
       National Security Agency**                                             5
       Defense Intelligence Agency**                                          5
       National Imagery and Mapping                                           5
         Agency**
       Total                                                                 66

________________
* New Reporting Requirement effective in FY 2003

** The Senate Select Committee on Intelligence in Committee Report 107-63 directed audits of the form
and content of the financial statements. The Committee further directed that these intelligence agencies
receive an annual audit of their financial statements beginning in FY 2004.




                                                    16
Each reporting entity prepares the following five financial statements.
   •   Balance Sheet
   •   Statement of Budgetary Resources
   •   Statement of Net Cost
   •   Statement of Changes in Net Position
   •   Statement of Financing

The annual financial statements also include an Overview, Notes to the Principal
Statements, and Required Supplemental and Other Accompanying Information, as
appropriate.

In addition to the reporting entities required by the Office of Management and
Budget shown in the table above, the remaining accounts of the Department are
reported in two columns of the consolidating balance sheet for the Department of
Defense Agency-wide financial statements. The two columns present the accounts
of:

Other Defense Organizations-General Fund
Other Defense Organizations-Working Capital Fund

Included in the Other Defense Organizations are approximately 38 Defense agencies,
field activities, trust funds, and other funds administered by the Office of the Secretary of
Defense. The Under Secretary of Defense (Comptroller) requires an additional nine of
these Other Defense Organizations to prepare stand-alone financial statements:
   •   Defense Advanced Research Projects Agency
   •   Defense Commissary Agency
   •   Defense Contract Audit Agency
   •   Defense Finance and Accounting Service
   •   Defense Information Systems Agency
   •   Defense Logistics Agency
   •   Defense Security Service
   •   Defense Threat Reduction Agency
   •   Missile Defense Agency

Statement of Custodial Activity. The DoD Agency-wide financial statements also
include a Statement of Custodial Activity that includes deposits by foreign governments
and disbursements in their behalf.




                                             17
Attachment 2
                                  Audit Reports

Report                            Report Title                      Report Date
Number

 D-2003-091   “Reliability of the FY 2002 National Security         May 14, 2003
(Secret)      Agency Financial Statements and Adequacy of
              Related Procedures and Control”

 D-2003-074   “Reliability of the FY 2002 Defense Intelligence      April 7, 2003
(Secret)      Agency Financial Statements and Adequacy of
              Related Procedures and Control”

D-2003-073    “Reliability of the FY 2002 National Imagery and      April 2, 2003
(Secret)      Mapping Agency Financial Statements and Adequacy
              of Related Procedures and Control”

D-2003-067    “Audit of Recoveries of Prior-Year Obligations”      March 21, 2003

D-2003-058    “Financial Reporting of Deferred Maintenance          March 6, 2003
              Information on Navy Weapon Systems for FY 2002”

D-2003-054    “Financial Reporting of Deferred Maintenance         February 3, 2003
              Information on Army Weapons Systems for FY
              2002”

D-2003-050    “Independent Auditor's Report on the Department of   January 15, 2003
              Defense Fiscal Year 2002 Agency-Wide Principal
              Financial Statements”

D-2003-047    “Independent Auditor's Report on the Army General    January 8, 2003
              Fund Fiscal Year 2002 Principal Financial
              Statements”

D-2003-046    “Independent Auditor's Report on the Army Working    January 8, 2003
              Capital Fund Fiscal Year 2002 Principal Financial
              Statements”

D-2003-045    “Independent Auditor's Report on the Department of   January 7, 2003
              the Navy Working Capital Fund Fiscal Year 2002
              Principal Financial Statements”




                                       18
D-2003-044   “Independent Auditor's Report on the Navy General     January 7, 2003
             Fund Fiscal Year 2002 Principal Financial
             Statements”

D-2003-043   “Independent Auditor's Report on the U.S. Army        January 6, 2003
             Corps of Engineers, Civil Works, Fiscal Year 2002
             Principal Financial Statements”

D-2003-042   “Independent Auditor's Report on the Air Force        January 6, 2003
             Working Capital Fund Fiscal Year 2002 Principal
             Financial Statements”

D-2003-041   “Independent Auditor's Report on the Air Force        January 6, 2003
             General Funds Fiscal Year 2002 Principal Financial
             Statements”

D-2003-039   “Naval Supply Systems Command Revaluation of         December 31, 2002
             Inventory to Latest Acquisition Cost”

D-2003-035   “The Integrated Automated Travel System              December 16, 2002
(FOUO)       Information Security Program”

D-2003-030   “Financial Reporting of Deferred Maintenance         November 27, 2002
             Information on Air Force Weapons Systems for
             FY 2002”

D-2003-020   “Naval Air Systems Command Financial Reporting       November 8, 2002
             of Non-Ammunition Operating Material and
             Supplies for FY 2002”

D-2002-076   “Funding Invoices to Expedite the Closure of          March 29, 2002
             Contracts Before Transitioning to a New DoD
             Payment System”




                                     19
